HHS/OIG-Audit--"Improper Medicare Payments to Hospitals for Nonphysician Outpatient Services Under the Prospective Payment System, (A-01-95-00508)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Improper Medicare Payments to Hospitals for Nonphysician Outpatient Services Under the Prospective Payment System," (A-01-95-00508)
May 23, 1996
Complete
Text of Report is available in PDF format (1.1 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Under current Medicare regulations, separate payment for nonphysician outpatient services rendered within the diagnosis-related
group (DRG) payment window are not allowed. Our audit report identifies, however, over $27 million in potential improper
billings and subsequent payments for nonphysician outpatient services rendered within the DRG payment window for the period
January 1992 through December 1994. This is a continuing problem. As a result of prior reviews on this subject the Health
Care Financing Administration has recovered over $100 million in improper payments. Our office has initiated a joint project
with the Department of Justice to recover overpayments and to assess penalties and interest. The Health Care Financing
Administration has also agreed with our procedural recommendations designed to address this problem.